MEMORANDUM FOR:                 RAYMOND L. BRAMUCCI
                                Assistant Secretary for
                                 Employment and Training


FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit


SUBJECT:                        Audit of The Children’s Village
                                Final Report No. 02-00-201-03-340


The attached subject final report is submitted for your resolution action. We request a response to this
report within 60 days.

You are responsible for transmitting a copy of this report to The Children’s Village officials for
resolution. However, we are providing a courtesy copy directly to Ms. Dale, President and CEO, The
Children’s Village.

If you have any questions concerning this report, please contact Richard H. Brooks, Regional Inspector
General for Audit, at (212) 337-2566.


Attachment
               AUDIT OF
        THE CHILDREN’S VILLAGE


      GRANT NO. F-4790-4-00-80-60
OCTOBER 1, 1994 THROUGH DECEMBER 31, 1998




                      U.S. DEPARTMENT OF LABOR
                      OFFICE OF INSPECTOR GENERAL

                      REPORT NO: 02-00-201-03-340
                      DATE: November 15, 1999
                                                  TABLE OF CONTENTS




ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS

          1.         PY 1997 FSR EXCEEDED RECORDED OUTLAYS . . . . . . . . . . . . . . . . 7

          2.         REPORTED FRINGE BENEFITS EXCEEDED
                     ACTUAL EXPENDITURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          3.         UNSUPPORTED SUBGRANTEE COSTS . . . . . . . . . . . . . . . . . . . . . . . 11

          4.         CV DID NOT OBTAIN AN APPROVED INDIRECT
                     COST RATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

SCHEDULES

          A          GRANTEE’S FINANCIAL STATUS REPORT . . . . . . . . . . . . . . . . . . . . 15

          B          SCHEDULE OF REPORTED OUTLAYS, QUESTIONED
                     AND ACCEPTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          C          SCHEDULE OF QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDIX

          CV RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                     ACRONYMS




CFR    Code of Federal Regulations

CV     The Children’s Village

DOL    U. S. Department of Labor

ETA    Employment and Training Administration

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

OCD    Office of Cost Determination

OIG    Office of Inspector General

OMB    Office of Management and Budget

PRY    Project Reach Youth, Inc.

PY     Program Year

WAY    Work Appreciation for Youth




                          i
                          EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), performed a financial and
compliance audit of outlays reported by The Children’s Village (CV) under DOL Grant Number F-
4790-4-00-80-60 for the period October 1, 1994 to December 31, 1998. The audit objective was to
determine whether reported outlays were allowable and within terms and conditions of the grant award
and program regulations.

CV is a not-for-profit organization incorporated in 1851 by an act of the New York State Legislature.
CV maintains an institution for the treatment and education of emotionally disturbed children and
operates small group facilities and foster homes for their care.

The Employment and Training Administration (ETA) awarded CV a grant of $1,407,920 for the period
October 1, 1994 to December 31, 1998, under Title IV-D of the Job Training Partnership Act (JTPA).
The purpose of the grant was to replicate CV’s Work Appreciation for Youth (WAY) Scholarship
program at multiple sites. The grant targeted 14-16 year old youths who were economically
disadvantaged and who were not enrolled in or attending an educational program. This grant
represents a small fraction of CV’s total annual funding of approximately $25 million.

In our opinion, except for questioned costs, the Financial Status Reports (FSR) present fairly the results
of CV’s operations in accordance with applicable laws and regulations for the grant period. For the
audit period, CV reported outlays of $1,769,502 of which we question $101,174 or 5.7 percent.

        C       We question $54,237 in excess reported outlays. While reported outlays on the FSRs
                for Program Years (PYs) 1994, 1995 and 1996 agreed with recorded costs, the
                outlays reported on the FSR for PY 1997 exceeded recorded costs by $54,237.

        C       We question $22,103 of fringe benefits. Reported fringe benefits were based on a
                budgeted rate of 25 percent of personnel costs. However, actual fringe benefits
                incurred by CV and Project Reach Youth (PRY), its subgrantee, were lower than what
                was reported.

        C       We question $24,834 of unsupported subgrantee costs. PRY could not fully support
                project coordinator and facilitation fees.




                                                    1
       C       CV did not obtain an approved indirect cost rate from the Office of Cost Determination
               (OCD). Although reported indirect costs were proportional to DOL’s share of total
               activity, to close out the grant CV is required to obtain approved indirect cost rates to
               comply with Office of Management and Budget (OMB) Circular A-122 and grant
               requirements.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $80,938,
representing the Federal share of $101,174 in questioned costs, and ensure that CV complies with
grant and OMB Circular A-122 requirements by obtaining final indirect cost rates.

CV Response

The Vice President of Administration and Finance of CV responded to our draft report on October 6,
1999. CV agreed with three of the four findings but disagreed with questioned costs of $24,834
related to unsupported subgrantee costs. However, questioned costs remain unchanged since CV did
not provide any additional documentation to support subgrantee costs. CV also indicated that it has
submitted final indirect cost proposals to the Office of Cost Determination (OCD).

CV’s response to the draft report has been incorporated in the report with our comments. It is also
included in its entirety as an Appendix.




                                                   2
                                    INTRODUCTION

                              CV was incorporated as a not-for-profit organization in 1851 by an act of
 BACKGROUND
                              the New York State Legislature. CV maintains an institution for the
                              treatment and education of emotionally disturbed children and operates
small group facilities and foster homes for their care. CV is primarily supported by governmental
agencies through cost reimbursement arrangements, with the major portion of its support provided by
the State and City of New York. In Fiscal Year (FY) 1998, CV’s total revenues were $26.7 million.

In 1994, ETA awarded CV Grant No. F-4790-4-00-80-60, seeking a pilot model that was more
comprehensive and intensive than training services typically provided under JTPA Tile II-C, Youth
Training Programs. The grant replicated CV’s WAY Scholarship program at multiple sites and was
funded under the JTPA, Title IV-D, National Activities, in the amount of $1,407,920, as follows:


                                Amount                                 Period

         Initial Year        $ 476,644              October 1, 1994 to September 30, 1995

         Option Year 1       $ 445,176              October 1, 1995 to September 30, 1996
         Option Year 2       $ 486,100              October 1, 1996 to December 31, 19981

              Total          $1,407,920

The grant targeted 14 through 16 year old youths who were not enrolled in or attending an educational
program and had a fourth grade reading level. The key components of the program were counseling,
work ethics education gained through work experience, special matched savings, and financial support
for tutoring. The grant included an evaluation component which required the grantee to evaluate
implementation and outcomes of the program. The grant required a 20 percent matching contribution
by CV.

                                  The objective of the audit was to determine whether outlays reported
 AUDIT OBJECTIVES
                                  by CV under the grant were allowable and within terms and conditions
                                  of the grant award and program regulations.




        1
           The second option year was extended to August 30, 1998, without additional funding. The grant was
further extended to December 31, 1998, to complete the final report.

                                                        3
                               We audited outlays of $1,769,502 reported under Grant Number F-
 AUDIT SCOPE AND               4790-4-00-80-60 for the period October 1, 1994 to
 METHODOLOGY                   December 31, 1998. We examined FSRs, the general ledger and
                               supporting documentation. We tested transactions on a judgmental
                               basis, and examined supporting documents such as canceled checks,
vouchers, and invoices.

We obtained an understanding of the internal controls through inquiries with appropriate personnel and
inspection of relevant documentation. The nature and extent of our testing were based on the risk
assessment.

The audit was performed using the criteria we considered relevant. The criteria included those
established by the Federal Government in OMB Circular A-122, “Cost Principles for Non-Profit
Organizations,” and 29 CFR Part 95, “Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.”

Our audit was performed in accordance with generally accepted auditing standards and Government
Auditing Standards, issued by the Comptroller General of the United States. We conducted
fieldwork from May 3, 1999 to June 2, 1999. We held an exit conference with CV officials on June 2,
1999.




                                                   4
Mr. Raymond L. Bramucci
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C.


                         ASSISTANT INSPECTOR GENERAL’S REPORT


We audited the Financial Status Reports (SCHEDULE A) for the period October 1, 1994 through
December 31, 1998, under DOL grant number F-4790-4-00-80-60. The outlays reported are the
responsibility of CV management. Our responsibility is to express an opinion on the reported expenses
based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported outlays are
free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported outlays. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported outlays.
We believe our audit provides a reasonable basis for our opinion.

The Financial Status Reports were prepared in conformity with accounting practices prescribed by 29
Code of Federal Regulations Part 95, “Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,”
which is a comprehensive basis of accounting other than generally accepted accounting principles.
Allowable costs are established by the OMB Circular A-122.

Opinion on Financial Statements

As discussed in the Findings and Recommendations section, excess reported outlays, excess fringe
benefits, and unsupported subgrantee costs resulted in questioned costs of $101,174
(SCHEDULE C). ETA is responsible for resolving the questioned costs. The total effect of ETA’s
determination cannot be estimated at this time.

In our opinion, except for the matters described in the preceding paragraph, The Financial Status
Reports present fairly, in all material respects, the results of CV’s operations in accordance with
applicable laws and regulations for the grant ending December 31, 1998.




                                                   5
Report on Internal Control

In planning and performing our audit of outlays reported by CV for PYs 1994, 1995, 1996 and 1997,
we considered CV’s internal control over financial reporting in order to determine our auditing
procedures for the purpose of expressing our opinion on reported outlays and not to provide
assurances on the internal control over financial reporting. Our consideration of the internal control
over financial reporting would not necessarily disclose all matters in the internal control over financial
reporting that might be material weaknesses. A material weakness is a condition in which the design or
operation of one or more of the internal control components do not reduce to a relatively low level the
risk that misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

We noted no matters involving the internal control over financial reporting and its operations that we
consider to be material weaknesses.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and grant agreement provisions is the responsibility of CV. As part
of obtaining reasonable assurance about whether reported outlays are free of material misstatement, we
performed tests of CV’s compliance with certain provisions of laws, regulations, and the grant
agreement. However, our objective was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not express such an opinion. The results of our tests disclosed one
instance of noncompliance that is required to be reported under Government Auditing Standards and
which is described in the Findings and Recommendations section of the report. CV did not obtain an
approved indirect cost rate as required by OMB Circular A-122. (See Finding No.4.)

This report is intended for the information of CV and ETA and should not be used for any other
purpose. This restriction is not intended to limit the distribution of this report, which when issued, is a
matter of public record.




John J. Getek
Assistant Inspector General
  for Audit

June 2, 1999




                                                      6
            FINDINGS AND RECOMMENDATIONS

                                            Outlays reported on the FSR submitted to DOL for PY
 1. PY 1997 FSR EXCEEDED
                                            1997 exceeded costs recorded in the general ledger. We
    RECORDED OUTLAYS
                                            question $54,237 in excess reported outlays. We could
                                            not determine the cause of overreporting since the official
responsible for preparing the FSR is no longer with CV. 29 CFR 95.21(b) requires that:

        “Recipients’ financial management systems shall provide for the following: (1) Accurate,
        current and complete disclosure of the financial results of each federally-sponsored
        project or program in accordance with the reporting requirements set forth in Sec. 95.52
        . . . (7) Accounting records including cost accounting records that are supported by
        source documentation.”

We examined FSRs for PYs 1994 through 1997. As shown below, FSRs for PYs 1994, 1995 and
1996 agreed with recorded expenditures, while the FSR for PY 1997 exceeded recorded expenditures
by $54,237.


                                                            Costs
                           Outlays Reported              Recorded on
                 PY           On FSRs2                  General Ledger              Difference

                  94              $369,894                    $369,894                    0
                  95               498,401                     498,401                    0
                  96               513,359                     513,359                    0
                  97               387,848                     333,611                $(54,237)
                Total           $1,769,502                 $1,715,265                 $(54,237)




        2
         The grant required a 20 percent matching contribution. Amounts shown represent total reported outlays.
The Federal share of reported and recorded outlays for all 4 years was $1,415,602 and $1,372,212, respectively.

                                                       7
Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $43,3893,
representing the Federal share of questioned costs of $54,237.

CV Response

        “I agree with the findings as presented that indicates our billings on the FSR for 94, 95
        and 96 were proper and in compliance with the intent of the contract. However, the FSR
        billed amount for 1997 reflected a budgetary amount as opposed to an actual. Therefore
        this finding is accurate.”




        3
          Questioned costs of $54,237 include the Federal share of $43,389 and the grantee’s matching contribution
of $10,848. Actual recovery may be less because the total funds drawn were less than reported outlays. CV
reported outlays of $1,415,602 while funds drawn were $1,407,920, the amount of the grant award.

                                                         8
                                          Fringe benefits were based on a budgeted rate of 25
 2. REPORTED FRINGE
                                          percent of personnel costs. However, actual fringe
    BENEFITS EXCEEDED
                                          benefits incurred by CV and PRY, its subgrantee, during
    ACTUAL EXPENDITURES
                                          the grant period were lower. We question $22,103 of
                                          fringe benefits in excess of actual expenditures. OMB
Circular A-122, Attachment B, Paragraph 7 states:

         “Compensation for personal services includes all compensation paid currently or accrued
         by the organization for services of employees rendered during the period of the award. . .
         . It includes, but is not limited to, salaries, wages, director’s and executive committee
         member’s fees, incentive awards, fringe benefits, pension plan costs, allowances for off-
         site pay, incentive pay, location allowances, hardship pay, and costs of living
         differentials.”

CV reported fringe benefits using a budgeted rate of 25 percent of personnel costs. Actual fringe
benefits incurred by CV were lower than what was reported. During FYs 1995 to 1999, actual fringe
benefit rates ranged from 19.38 percent to 23.96 percent. As a result, reported fringe benefits
exceeded actual outlays by $10,996.


                                       Actual
                    Fiscal         Personnel Costs           Actual Fringe           Actual Fringe
                    Year              Incurred              Benefit Percent            Benefits
                    1995                 $55,195                  23.96                 $13,225
                    1996                  83,032                  22.07                   18,325
                    1997                  71,702                  20.86                   14,957
                    1998                  71,965                  19.38                   13,947
                    1999                  17,360                   19.384                  3,364
                    Total              $299,254                                         $63,818


               Reported Fringe Benefits @ 25 percent                                    $74,814


               Excess Reported Fringe Benefits                                          $10,996

Additionally, CV reimbursed fringe benefits to subgrantees based on the same budgeted rate of 25


         4
            The actual fringe benefit rate for FY 1999 was not available. We used the FY 1998 rate to estimate fringe
benefits for FY 1999.

                                                           9
percent. At PRY, fringe benefits incurred for FY 1998 were 17.65 percent of salaries. According to
an official at PRY, fringe benefit rates for other fiscal years were similar. As a result, reported fringe
benefits for PRY exceeded actual fringe benefits by $11,107.

         Reported Subgrantee Fringe Benefits                                           $45,074
         Actual Fringe Benefits ($192,445 @ 17.65 percent)                              33,967

         Excess Reported Fringe Benefits                                               $ 11,107

CV’s financial assistant stated that the rate of 25 percent was used because it had been approved in the
grant budget.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $17,6825,
representing the Federal share of excess fringe benefits of $22,103.

CV Response

         “I agree with finding #2 since the fringe benefit amount billed under this grant reflected
         budgeted fringe percentages as opposed to actual calculated fringe percentages. This
         treatment would only be acceptable under a fixed price contract.”




         5
             Questioned costs of $22,103 include the Federal share of $17,682 and the grantee’s matching contribution
of $4,421.

                                                          10
                                          PRY could not support $24,834 out of $48,634 in
 3. UNSUPPORTED
                                          project coordinator and facilitation fees reimbursed by
    SUBGRANTEE COSTS
                                          CV. PRY did not maintain time distribution reports and a
                                          method to allocate administrative expenses. We question
costs of $24,834. 29 CFR 95.21 (b) (7) requires that:

        “Recipients’ financial management systems shall provide for the following . . .
        Accounting records including cost accounting records that are supported by source
        documentation.”

In 1998, CV reimbursed PRY $48,634 for project coordinator and facilitation fees covering the 11-
month period from October 1, 1997 to August 31, 1998. According to the facilitator at PRY, invoices
were for (1) salary and fringe benefits of the facilitator who also acted as a project coordinator, and (2)
administrative expenses. However, PRY could only support $23,800 of the facilitator’s wages and
fringes, and there was no documentation to support administrative expenses.

Salary and Fringe Benefits of the Facilitator

The facilitator received an annual salary of $44,800 to perform various duties which benefitted the CV
subgrant as well as other PRY programs. The facilitator did not prepare time distribution reports but
estimated that she spent 30 percent of her time on the CV subgrant between
October 1997 and February 1998, and 60 percent of her time between March 1998 and
August 1998. Based on the above, we calculated that $23,800 of the facilitator’s wages and fringe
benefits was allocable to the CV subgrant.

Administrative Expenses

According to the facilitator, invoices included 10 percent of salaries and fringe benefits for the
executive director, director of counseling, bookkeeper, and a secretary as administrative expenses.
However, there was no documentation to support administrative expenses. The invoices did not
indicate that goods or services were for administrative expenses, and there was no documentation to
support an arbitrary allocation of 10 percent. Additionally, expenses for the CV subgrant were only
4.1 percent of PRY’s total expenses for FY 1998, substantially less than the purported 10 percent. An
administrative allocation of 10 percent is relatively high using expenses as a measure of activity.




                                                    11
We calculated allowable salary and fringe benefits of $23,800 for the facilitator, and questioned costs
$24,834 as shown below:

         Reimbursed Project Coordinator and Facilitation Fees                           $48,634

         Supported Salary and Fringe Benefits:

                October 1997 to February 1998                                           $ 5,6006
                March 1998 to August 1998                                                13,4407
                Fringe Benefits @ 25 percent 8                                            4,760

         Total Supported Fees                                                               23,800

         Questioned Costs                                                               $24,834

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover $19,8679
representing the Federal share of questioned costs of $24,834.

CV Response

          “I strongly object to the intent, severity and presentation of this finding. Invoices paid
         to the sub-contractor upon presentation with reasonable assurance that they represented
         accurate billed dollars should not be questioned, in my opinion. Conversations held with
         the subcontractor long after the effort had ceased had been taken by the Dept. Of Labor
         audit team as sufficient reason to question the effort expended. By the same token, in
         those conversations held with the sub-contractor, the audit team has elected to ignore
         subcontractor’s portrayal of additional administrative costs and expenses that also
         should have been included in these billings. To this end I object to this finding and object
         to the request for reimbursement.”


         6
             Represents an annual salary of $44,800 for 5 out of 12 months at 30 percent.

         7
             Represents an annual salary of $44,800 for 6 out of 12 months at 60 percent.

         8
            Actual fringe benefit rate for PRY was 17.65 percent. However, 25 percent used by CV to claim fringe
benefits is used in this calculation since the difference between 25 percent and 17.65 percent is already included in
Finding 2.

         9
             Questioned costs of $24,834 include the Federal share of $19,867 and the grantee’s matching contribution
of $4,967.

                                                            12
OIG Comment

We do not agree. CV is responsible for ensuring that costs submitted for reimbursement, including
those of subgrantees, are adequately supported. Additionally, in the absence of time distribution
reports, time estimates of the PRY facilitator were the only available basis in which the facilitator’s
salary could be allocated to the CV subgrant. Finally, PRY and CV did not provide documentation
either during the fieldwork or in its response to the draft report to support an arbitrary rate of 10
percent for administrative expenses.

                                        CV did not obtain an approved indirect cost rate from
 4. CV DID NOT OBTAIN AN
                                        OCD. Indirect costs reported were proportional to the
    APPROVED INDIRECT COST
                                        DOL grant’s share of total activity. However, CV is
    RATE
                                        required to obtain approved indirect cost rates to comply
                                        with OMB Circular A-122 and to close out the grant.
OMB Circular No. A-122, Attachment A, Section E.2 (b) and (c) requires:

        “A non-profit organization which has not previously established an indirect cost
        rate with a Federal agency shall submit its initial indirect cost proposal
        immediately after the organization is advised that an award will be made and, in
        no event, later than three months after the effective date of award. Organizations
        that have previously established indirect cost rates must submit a new indirect cost
        proposal to the cognizant agency within six months after the close of each fiscal
        year.”

Indirect cost proposals were not submitted to OCD as of the end of our fieldwork. Because indirect
costs were proportional to DOL grant’s share of total activity, we did not question any indirect costs.
CV, however, needs to submit indirect cost proposals to comply with OMB Circular A-122 and
establish final rates to close out the grant. Submitted proposals are subject to review or audit and costs
may be questioned at that time.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure that CV complies with
grant and OMB Circular A-122 requirements by obtaining final indirect cost rates.

CV Response

        “As indicated previously in this letter, we are in the process of obtaining an approved
        indirect cost rate. Once this rate is obtained we will be in a position to respond to your
        finding.”



                                                    13
                                                      SCHEDULE A



                THE CHILDREN’S VILLAGE
           GRANTEE’S FINANCIAL STATUS REPORT
              GRANT NUMBER F-4790-4-00-80-60
         OCTOBER 1, 1994 THROUGH DECEMBER 31, 1998




Program          Net        Recipient’s Share   Federal Share
 Year           Outlays      of Net Outlays     of Net Outlays


 1994           $369,894          $73,979         $295,915

 1995            498,401          99,680            398,721

 1996            513,359          102,671          410,687

 1997            387,848          77,570            310,279


 Total         $1,769,502        $353,900        $1,415,602




                            14
                                                  SCHEDULE B



                THE CHILDREN’S VILLAGE
SCHEDULE OF REPORTED OUTLAYS, QUESTIONED AND ACCEPTED
             GRANT NUMBER F-4790-4-00-80-60
       OCTOBER 1, 1994 THROUGH DECEMBER 31, 1998




        Reported      Questioned      Accepted
        Outlays         Costs          Costs




        $1,769,502     $ 101,174     $1,668,328




                         15
                                                           SCHEDULE C



                   THE CHILDREN’S VILLAGE
                SCHEDULE OF QUESTIONED COSTS
                 GRANT NUMBER F-4790-4-00-80-60
            OCTOBER 1, 1994 THROUGH DECEMBER 31, 1998




                                                           Federal Share
                                              Questioned   of Questioned
Findings                                        Costs          Costs
1.   PY 1997 FSR Exceeded Recorded Outlays      $54,237      $43,389

2.   Reported Fringe Benefits Exceeded
     Actual Expenditures                         22,103       17,682

3.   Unsupported Subcontractor Costs             24,834       19,867

                       Total                   $101,174      $80,938




                                         16
